This document is an ASCII-formatted version of a printed
document. The page numbers in this electronic version may
not be in the same order as those in the printed document.
The printed document may also contain charts and photographs
which are not reproduced in this electronic version. If you
require the printed version of this document, contact the
Office of Inspector General (IG-1), Department of Energy,
1000 Independence Avenue, SW, Washington, DC, 20585, or call
the Office of Inspector General Reports Request Line at
(202) 586-2744.


                  U. S. DEPARTMENT OF ENERGY
                  OFFICE OF INSPECTOR GENERAL




               REPORT ON MATTERS IDENTIFIED AT
               THE STRATEGIC PETROLEUM RESERVE
      DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
               STATEMENT OF FINANCIAL POSITION
                  AS OF SEPTEMBER 30, 1995




The Office of Audit Services wants to make the distribution
of its audit reports as customer friendly and cost effective
as possible. Therefore, this report will be available
electroncially through the Internet 5 to 7 days after
publication at the following alternative addresses:

          Department of Energy Headquarters Gopher
                      gopher.hr.doe.gov

       Department of Energy Headquarters Anonymous FTP
                     vm1.hqadmin.doe.gov

We are experimenting with various options to facilitate
audit report distribution. Your comments would be
appreciated and can be provided on the Customer Comment Form
attached to the Audit Report.




Report Number:   CR-FS-96-03                    Capital
Regional Audit Office
Date of Issue: April 15, 1996
Germantown, MD 20874

               REPORT ON MATTERS IDENTIFIED AT
               THE STRATEGIC PETROLEUM RESERVE
      DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
               STATEMENT OF FINANCIAL POSITION
                  AS OF SEPTEMBER 30, 1995


                         TABLE OF CONTENTS

                                                           Page

SUMMARY                                      .........       1

PART I - APPROACH AND OVERVIEW .....................         2

Introduction                                 .........       2

Scope and Methodology..............................          2

Observations                                 .........       3

PART II - AUDIT RESULTS                                      4

Finding 1:     Degasification and Cooling Costs.......       4

Finding 2:     Weeks Island Decommissioning Costs.......     5

Finding 3:     Quantity and Cost Adjustments..........       6

Finding 4:     Timing Differences......................      7

Finding 5:     Duplication of Effort...................      7

Finding 6:     Obsolete Property........................     8

Finding 7:     Capitalization Procedures .............       9

Finding 8:     Inadequate Documentation................     10
                   U. S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

                 REPORT ON MATTERS IDENTIFIED AT
                 THE STRATEGIC PETROLEUM RESERVE
        DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
                 STATEMENT OF FINANCIAL POSITION
                    AS OF SEPTEMBER 30, 1995


Audit Report Number:   CR-FS-96-03


                              SUMMARY

   The Government Management Reform Act of 1994 requires that the
Department of Energy (Department) submit audited financial
statements to the Office of Management and Budget annually,
beginning with the statements as of September 30, 1996. In
preparing for this effort, we planned to audit the Consolidated
Statement of Financial Position as of September 30, 1995, to
determine whether it presented fairly, in all material respects,
the Department's financial position. With the assistance of an
independent public accounting firm who applied agreed-upon
procedures, we conducted a portion of the Departmentwide audit at
the Strategic Petroleum Reserve and its integrated management and
operating contractor, DynMcDermott Petroleum Operations Company
(DynMcDermott). For crude oil inventories, the Strategic
Petroleum Reserve Project Management Office (Project Office) is
responsible for the financial accounting records, and
DynMcDermott maintains quantitative records. For property,
DynMcDermott maintains financial accounting records, and the
Project Office is responsible for the account balances entered
into the Department's core accounting system.

   The audit disclosed errors and control weaknesses as of
September 30, 1995, which impacted two Departmental accounts,
Petroleum Inventories and Completed Property, Plant and
Equipment.

   We recommended that adjustments be made to the accounts and
improvements be made to the internal controls. Management
generally concurred with the findings and recommendations and
agreed to make adjusting entries in accordance with Departmental
Headquarters direction.




                                     ______________________
                                     Office of Inspector General

                              PART I

                       APPROACH AND OVERVIEW
INTRODUCTION

   The Government Management Reform Act of 1994 significantly
expanded the provisions of the Chief Financial Officers Act of
1990 and requires that audited financial statements covering all
accounts and associated activities of the Department of Energy
(Department) be submitted to the Office of Management and Budget
annually. The first submission involves financial statements as
of September 30, 1996. In preparing for this effort, the Office
of Inspector General planned to audit the Department's
Consolidated Statement of Financial Position as of September 30,
1995, by examining internal controls, assessing compliance with
laws and regulations, and testing selected account balances at
various Departmental facilities.

   The objective of the Departmentwide effort was to determine
whether the Department's Consolidated Statement of Financial
Position as of September 30, 1995, presented fairly, in all
material respects, its financial position. Departmentwide issues
are addressed in Audit Report No. IG-FS-96-01.

   The purpose of this report is to inform the Strategic
Petroleum Reserve Project Management Office (Project Office) of
matters that came to the attention of the Office of Inspector
General during the audit at the Project Office and DynMcDermott
Petroleum Operations Company (DynMcDermott), its integrated
management and operating contractor. In managing the Strategic
Petroleum Reserve (Reserve), DynMcDermott maintains financial
accounting records for property, and the Project Office is
responsible for the account balances entered into the
Department's core accounting system. For crude oil inventories,
the Project Office is responsible for the financial accounting
records, and DynMcDermott maintains the quantitative records.

SCOPE AND METHODOLOGY

   Audit work was conducted from June 1995 through November 1995
at activities managed by DynMcDermott with operations at Bayou
Choctaw, Weeks Island, West Hackberry and St. James Terminal in
Louisiana, and Bryan Mound and Big Hill in Texas. With the
assistance of an independent public accounting firm who applied
agreed-upon procedures, we examined internal controls, assessed
compliance with applicable laws and regulations, and tested
selected account balances. These accounts were Petroleum
Inventories; Completed Property, Plant and Equipment; and
Accumulated Depreciation.

   Audit work was performed in accordance with generally accepted
Government auditing standards for financial audits. Since we
relied on computer-generated data, we evaluated the general
control environment of applicable systems and tested the
reliability of data.

   Because audit work was limited, it would not necessarily
disclose all the internal control weaknesses that exist.
Furthermore, because of inherent limitations in any internal
control structure, errors or irregularities may nevertheless
occur and not be detected. The issues addressed in this report
represent our observations of activities through the end of field
work. Projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become
inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and
procedures may deteriorate.

   An exit conference was held with the Project Office and
DynMcDermott on November 17, 1995.

OBSERVATIONS

   During our audit, we found errors and control weaknesses that
impacted Petroleum Inventories and Completed Property, Plant and
Equipment account balances for the Reserve as of September 30,
1995. Problems with the Petroleum Inventories account involved
lack of accruals for loss contingencies, timing differences, and
duplication of effort. The Completed Property, Plant and
Equipment account had problems related to obsolete property,
incomplete capitalization, and inadequate documentation.

   The following conditions were noted in relation to the
Petroleum Inventories account. Loss contingency costs were not
accrued for degasification and cooling operations required to
draw-down crude oil or for the planned decommissioning of Weeks
Island. Adjustments to crude oil quantity could be (and were)
made in a different period than the accompanying adjustments to
value. Also, efforts were unnecessarily duplicated because the
same information on crude oil quantity adjustments was being
independently entered into two separate systems.

   The Property, Plant and Equipment account was affected by
three noted conditions. Unused and excess property with minimal
net realizable value was classified in the property records as in-
service and included in the accounting records at net book value.
Property records did not always reflect the effect of contract
modifications on capitalized assets. In addition, accounting
transactions were not always properly documented.

   Management generally concurred with our findings and
recommendations and initiated, completed, or acknowledged that
corrective actions were needed to address each of our
recommendations. Part II of this report provides additional
details concerning the audit results and management's comments.

                                PART II

                             AUDIT RESULTS


Finding 1:     Degasification and Cooling Costs

Background
   The Reserve's 1994 Assurance Memorandum to the Secretary of
Energy disclosed a higher-than-normal gas content in some of its
crude oil. This apparently resulted from years of intrusion of
methane from the surrounding salt formations and absorption of
nitrogen from cavern pressure integrity tests as well as elevated
temperatures of some of the crude oil due to geothermal heating.
Based on detailed chemical and physical analyses, it appears that
as much as 144 million barrels of the Reserves inventory may
require degasification treatment. According to Project Office
personnel, the estimated cost to treat the conditions noted is
$64 million. Of this amount, about $40 million was obligated as
of the end of Fiscal Year 1995, according to Project Office
personnel.

Details of Finding

   Statement of Financial Accounting Standard No. 5, Accounting
for Contingencies, states that a loss contingency should be
accrued if it is probable that an asset has been impaired or a
liability has been incurred at the balance sheet date and the
amount of the loss is reasonably estimable. However, the Reserve
had not accrued a loss for degasification and cooling costs that
are required to maintain crude oil draw-down capability.
According to Project Office personnel, the unfunded
degasification and cooling liabilities were approximately $24
million.

Recommendation

   We recommend that the Project Office recognize the remaining
loss contingency (unfunded liability) for the degasification and
cooling of the impacted crude oil reserves in the amount of $24
million as of September 30, 1995.

Management Comments

   The Project Office concurred with the finding and
recommendation and plans to make an adjusting entry.

Auditor Comments

   Management's actions are responsive to the recommendation.

Finding 2:   Weeks Island Decommissioning Costs

Background

   In February 1994, the Weeks Island Mine Integrity Management
Group (Integrity Group) was formed to begin an investigation of
the Weeks Island sinkhole and the increasing brine accumulation
in the storage chamber and to develop recommendations regarding
integrity of the mine for continued oil storage. Based upon
extensive geotechnical investigations, the Integrity Group
concluded that the storage chamber was, almost certainly, in
communication with the surface water aquifer, and established
that there would be an increased escalation of costs for
maintaining Weeks Island mine integrity. Accordingly, the
Integrity Group concluded that the storage facility is not
suitable for continued long-term oil storage. It also
recommended continuation of diagnostics, mitigation of known
anomalies and monitoring to identify other developing anomalies
with a view to assuring the most economical, safe, and
environmentally acceptable crude oil draw down and
decommissioning of the facility.

   In December 1994, the Department announced its intent to
decommission the Weeks Island storage facility because of the
geotechnical problems that pose a significant risk of
environmental damage and potential oil loss. According to
Project Office personnel, the estimated cost of decommissioning
Weeks Island is $90.7 million. Of this amount, about $13.3
million was obligated as of the end of Fiscal Year 1995,
according to Project Office personnel.

   The Department proposes to stabilize the empty mine by
controlled flooding of the chambers with brine and plugging of
the mine shafts and boreholes. Filling the mine with brine will
apparently allow for recovery of 95 to 98 percent of the residual
350,000 to 700,000 barrels of oil through skimming operations.
Approximately 10,000 to 30,000 barrels of crude will not be
recovered.

Details of Finding

   Statement of Financial Accounting Standard No. 5, Accounting
for Contingencies, states that a loss contingency should be
accrued if it is probable that an asset has been impaired or a
liability has been incurred at the balance sheet date and the
amount of the loss is reasonably estimable. However, the Reserve
had not accrued a loss for the remainder of estimated costs for
the ongoing decommissioning of Weeks Island or the unrecoverable
crude oil. As a result, the Reserve's unfunded decommissioning
expenses and liabilities related to closure of Weeks Island were
understated by about $77.4 million.

Recommendations

   We recommend that the Project Office recognize the remaining
loss contingency (unfunded liability) for the decommissioning of
Weeks Island in the amount of about $77.4 million as of
September 30, 1995. We further recommend
that that the loss due to unrecoverable crude be recorded at such
time that the amount can be reasonably estimated.

Management Comments

   The Project Office concurred with the finding and
recommendations and plans to make an adjusting entry.

Auditor Comments

   Management's proposed actions are responsive to the
recommendations.
Finding 3:   Quantity and Cost Adjustments

Background

   DynMcDermott maintains the quantity tracking system for crude
oil inventory, and the Project office maintains a separate cost
tracking system (financial accounting system) for the crude oil
inventory.

Details of Finding

   Sound business practices require that the effect of physical
inventory adjustments be recorded in the financial accounting
system in a timely manner. During Fiscal Year 1995, the quantity
tracking system was adjusted by about 7,200 barrels to reconcile
with physical tank adjustments; however, the cost tracking system
was not adjusted for these changes in the same fiscal year.
Recording quantity changes without recording the corresponding
value is a break-down of internal controls that could result in
errors in the financial statements. For example, as a result of
this particular instance, the crude oil inventory was overstated
by about $130,000, according to Project Office personnel.
Moreover, the potential for greater impact exists.

Recommendation

   We recommend that the Project Office ensure that controls are
implemented to avoid a similar occurrence in the future.

Management Comments

   The Project Office concurred with the finding and recommendation.

Auditor Comments

   Management's actions are responsive to the recommendation.

Finding 4:   Timing Differences

Background

   On behalf of the Department, the Defense Fuel Supply Center
enters into contracts with various oil companies to purchase
crude oil. These contractual agreements require that invoices be
sent to Departmental Headquarters for payment. Headquarters
sends a copy of the invoices to the Maintenance and Logistics
Division in New Orleans where the invoices are reviewed and
approved for payment. Payment to the contractor is made after
the approved invoices are returned to Headquarters. Access to
the obligated funds for purchasing the crude oil is retained at
Headquarters, and purchase costs are transferred to the Project
Office by transfer documents. Upon receipt of the transfer
document, the Project Office records a debit to crude oil
inventory and a credit to "transfers-in."

Details of Finding
   Sound business practices require timely recording of both the
quantity and cost of purchased inventories. However, a cost and
quantity timing difference exists in recording crude oil
purchases. The Project Office does not record the purchase cost
of crude oil inventory until receipt of a transfer document from
Headquarters while quantities of purchased crude oil are recorded
on receipt. As a result, purchases are recorded without
corresponding values, and inventories are understated until the
adjustment is recorded.

Recommendation

   We recommend that the Project Office implement procedures that
allow for crude oil purchase quantities and costs to be recorded
concurrently.

Management Comments

   The Project Office concurred with the finding and stated that
procedures to accrue crude oil inventory acquisition costs would
be reviewed and revised as appropriate.

Auditor Comments

   Management's proposed actions are responsive to the recommendation.


Finding 5:   Duplication of Effort

Background

   DynMcDermott maintains the quantity tracking system for crude
oil inventory, and the Project Office maintains a separate cost
tracking system (financial accounting system) for the crude oil
inventory. To provide an integrated system of inventory volumes
and dollars, DynMcDermott implemented a system that combined the
features of both systems. This cost/quantity system provided the
ability to maintain a moving weighted average cost per barrel by
complex and type. Additionally, this system provided the
capability to generate supporting reports and documents on both
dollars and volumes from one source and avoid duplication of
effort. This system was in demand because deficiencies in the
cost tracking system did not allow it to maintain both dollars
and volumes.

Details of Finding

   Sound business practice requires organizations to be operated
in a cost-effective manner. In contrast, we noted duplication of
effort when recording quantities and costs into the cost/quantity
system. DynMcDermott is entering the same information into the
cost/quantity system as that being independently entered into the
cost tracking system and the quantity tracking system. As a
result, additional costs are incurred.

Recommendation
   We recommend that the Project Office direct DynMcDermott to
create an automatic feed from the cost tracking system and the
quantity tracking system to the cost/quantity system or implement
other actions to alleviate this duplication of effort.

Management Comments

   The Project Office partially concurred with the finding and
took some corrective action by implementing an automated feed
from the quantity tracking system. An automatic feed was not
implemented from the cost tracking system because the cost
tracking system does not contain crude oil inventory data broken
down by site, type, and complex as required by the cost/quantity
system.

Auditor Comments

   Management's proposed actions are responsive to the
recommendation to the extent that it was able to implement an
automated feed from the quality tracking system.


Finding 6:   Obsolete Property

Details of Finding

   On September 25, 1995, consistent with the Federal Accounting
Standards Advisory Board Exposure Draft for Accounting for
Property, Plant and Equipment that would require Property, Plant,
and Equipment that is removed from service to be valued at its
expected net realizable value, the Department's Deputy Controller
issued guidance requiring the write down of surplus physical
assets to their net realizable value. At the time of the audit,
there were four unused and excess disposal wells and related land
on the Reserve's records that were classified as in-service real
property. These disposal wells were plugged with cement and thus
were unusable, having minimal, if any, net realizable value. As
a result, the Property, Plant and Equipment account balance is in
error by about $3.2 million.

Recommendation

   We recommend that the Project Office ensure that the disposal
wells and related land be written down to their net realizable
value and recognize a loss for Fiscal Year 1995.

Management Comments

   The Project Office concurred with the finding and
recommendation and plans to make an adjusting entry.

Auditor Comments

   Management's proposed actions are responsive to the recommendation.
Finding 7:   Capitalization Procedures

Details of Finding

   Departmental Order 2200.4, Accounting Overview, requires that
Property, Plant and Equipment be recorded at full cost. The full
cost should include all costs incurred to bring the asset to a
form and location suitable for the asset's intended use. Based
on DynMcDermott Internal Audit property testwork, it was noted
that real property records in the Real Property Department did
not reflect all contract modifications maintained by the
Procurement Department. After a contract is bid and awarded, the
contract price is communicated to the Real Property Department
where it is allocated among the related assets. Once the
contract is complete the contract price is capitalized. Any
modifications made to the contract are not necessarily
communicated to the Real Property Department. This was caused by
a breakdown of communication between the departments regarding
contract modifications. As a result, the amounts capitalized by
the Real Property Department were not always equal to the amount
paid for construction projects.

Recommendation

   We recommend that the Project Office ensure that procedures be
implemented to ensure that all contract modifications are
communicated to the Real Property Department. A possible
solution would be to have each department sign off on a final
contract price representing the amount to be capitalized.
Management Comments

   The Project Office concurred that the capitalized cost should
equal the amount actually paid.

Auditor Comments

   Management's proposed actions are responsive to the recommendation.


Finding 8:   Inadequate Documentation

Details of Finding

   General Accounting Office, Standards for Internal Controls In
The Federal Government, state that documentation of transactions
should be complete and accurate and should facilitate tracing the
transaction from before it occurs, while it is in process, to
after it is completed. Also, the documentation must be available
as well as easily accessible for examination. However,
documentation of accounting transactions was not always evident
within the Real Property Department. This is because there is an
apparent lack of guidance on what constitutes an effective and
clear audit trail. As a result, a clear and effective audit
trail did not always exist.

Recommendation
   We recommend that the Project Office direct DynMcDermott to
implement controls to ensure that all accounting transactions
within the Real Property Department be supported such that an
appropriate audit trail exists.

Management Comments

   The Project Office concurred with the finding and
recommendation. DynMcDermott Internal Audit will recommend
implementing controls to improve the flow of data on real
property files.

Auditor Comments

   Management's proposed actions are responsive to the recommendation.
